No. 19-337

the epupretne Court of tbe

niteb*tato

REGENTS OF THE UNIVERSITY OF MINNESOTA,
Petitioner,
v.
CORPORATION,
ET AL.
LSI
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

BRIEF OF THE ASSOCIATION OF
PUBLIC AND LAND-GRANT UNIVERSITIES AS
AMICUS CURIAE IN SUPPORT OF
PETITI ONER
As required by Supreme Court Rule 33.1(h), I
certify that this Brief contains 4441 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 10, 2019.
/044shua S. Jo:mson
Counsel for Amicus Curtae

